<html>
<title> - BIOMETRIC IDs FOR PILOTS AND TRANSPORTATION WORKERS: DIARY OF FAILURES</title>
<body><pre>[House Hearing, 112 Congress]
[From the U.S. Government Publishing Office]



 
                        BIOMETRIC IDs FOR PILOTS
                      AND TRANSPORTATION WORKERS:
                           DIARY OF FAILURES

=======================================================================


                                (112-26)

                                HEARING

                               BEFORE THE

                             COMMITTEE ON 

                   TRANSPORTATION AND INFRASTRUCTURE

                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED TWELFTH CONGRESS

                             FIRST SESSION

                               __________

                             APRIL 14, 2011

                               __________

                       Printed for the use of the
             Committee on Transportation and Infrastructure


         Available online at: http://www.gpo.gov/fdsys/browse/
        committee.action?chamber=house&committee=transportation





                  U.S. GOVERNMENT PRINTING OFFICE
65-851                    WASHINGTON : 2011
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001



             COMMITTEE ON TRANSPORTATION AND INFRASTRUCTURE

                    JOHN L. MICA, Florida, Chairman

DON YOUNG, Alaska                    NICK J. RAHALL II, West Virginia
THOMAS E. PETRI, Wisconsin           PETER A. DeFAZIO, Oregon
HOWARD COBLE, North Carolina         JERRY F. COSTELLO, Illinois
JOHN J. DUNCAN, Jr., Tennessee       ELEANOR HOLMES NORTON, District of 
FRANK A. LoBIONDO, New Jersey        Columbia
GARY G. MILLER, California           JERROLD NADLER, New York
TIMOTHY V. JOHNSON, Illinois         CORRINE BROWN, Florida
SAM GRAVES, Missouri                 BOB FILNER, California
BILL SHUSTER, Pennsylvania           EDDIE BERNICE JOHNSON, Texas
SHELLEY MOORE CAPITO, West Virginia  ELIJAH E. CUMMINGS, Maryland
JEAN SCHMIDT, Ohio                   LEONARD L. BOSWELL, Iowa
CANDICE S. MILLER, Michigan          TIM HOLDEN, Pennsylvania
DUNCAN HUNTER, California            RICK LARSEN, Washington
ANDY HARRIS, Maryland                MICHAEL E. CAPUANO, Massachusetts
ERIC A. ``RICK'' CRAWFORD, Arkansas  TIMOTHY H. BISHOP, New York
JAIME HERRERA BEUTLER, Washington    MICHAEL H. MICHAUD, Maine
FRANK C. GUINTA, New Hampshire       RUSS CARNAHAN, Missouri
RANDY HULTGREN, Illinois             GRACE F. NAPOLITANO, California
LOU BARLETTA, Pennsylvania           DANIEL LIPINSKI, Illinois
CHIP CRAVAACK, Minnesota             MAZIE K. HIRONO, Hawaii
BLAKE FARENTHOLD, Texas              JASON ALTMIRE, Pennsylvania
LARRY BUCSHON, Indiana               TIMOTHY J. WALZ, Minnesota
BILLY LONG, Missouri                 HEATH SHULER, North Carolina
BOB GIBBS, Ohio                      STEVE COHEN, Tennessee
PATRICK MEEHAN, Pennsylvania         LAURA RICHARDSON, California
RICHARD L. HANNA, New York           ALBIO SIRES, New Jersey
STEPHEN LEE FINCHER, Tennessee       DONNA F. EDWARDS, Maryland
JEFFREY M. LANDRY, Louisiana
STEVE SOUTHERLAND II, Florida
JEFF DENHAM, California
JAMES LANKFORD, Oklahoma
VACANCY

                                  (ii)

                                CONTENTS

                                                                   Page

Summary of Subject Matter........................................    iv

                               TESTIMONY

Furlani, Cita M., Director, Information Technology Laboratory, 
  National Institute of Standards and Technology, Department of 
  Commerce.......................................................     5
Gilligan, Margaret, Associate Administrator for Aviation Safety, 
  Federal Aviation Administration................................     5

               PREPARED STATEMENTS SUBMITTED BY WITNESSES

Furlani, Cita M..................................................    22
Gilligan, Margaret...............................................    30

[GRAPHIC] [TIFF OMITTED] 65851.001

[GRAPHIC] [TIFF OMITTED] 65851.002

[GRAPHIC] [TIFF OMITTED] 65851.003

[GRAPHIC] [TIFF OMITTED] 65851.004

[GRAPHIC] [TIFF OMITTED] 65851.005

[GRAPHIC] [TIFF OMITTED] 65851.006

[GRAPHIC] [TIFF OMITTED] 65851.007

[GRAPHIC] [TIFF OMITTED] 65851.008

[GRAPHIC] [TIFF OMITTED] 65851.009



                        BIOMETRIC IDs FOR PILOTS



                      AND TRANSPORTATION WORKERS:



                           DIARY OF FAILURES

                              ----------                              


                        THURSDAY, APRIL 14, 2011

                  House of Representatives,
    Committee on Transportation and Infrastructure,
                                            Washington, DC.
    The committee met, pursuant to notice, at 9:30 a.m. in Room 
2253, Rayburn House Office Building, Hon. John L. Mica 
(Chairman of the committee) presiding.
    Mr. Mica. I would like to call this hearing of the House 
Transportation and Infrastructure Committee to order this 
morning. I welcome you. This is an Oversight and Investigations 
hearing that will focus on the issue of the use of biometric 
credentials for airline pilots and other transportation 
workers. And this is, again, part of our investigations and 
oversight of our committee, and being handled this morning at 
the full committee level. And I appreciate the participation of 
other Members this morning. I think we will be joined by a few 
more. There are conflicting schedules; I apologize for the 
delay in beginning this. We had our governor in town, so we 
ended up with a triple booking this morning, and I appreciate 
everyone's courtesy in allowing us to start a little bit late 
this morning.
    The topic and--the order of business will be opening 
statements by Members, and then we will go to our witnesses. 
And if anyone would like to submit comments or additional 
information to the record, without objection that will be so 
ordered.
    Again, the purpose for us being here this morning is to 
review the progress and sometimes the lack of progress in 
producing a pilot's license that has both information that 
identifies the pilot in a manner that we prescribed some time 
ago--I think 6 or 7 years ago--by law. At that particular 
juncture, when we found the pilot's license looked like it sort 
of came out of a Cracker Jack box, it was just a little folded 
piece of paper, could easily be duplicated, we passed a law 
that said we should have a biometric measure, we should have a 
photograph, and that we should have a durable identification 
card. That was enacted by law some time ago, and we still don't 
have that particular card available.
    Do we have a copy of one of the--may I? If you want to 
bring that up here, and maybe just put it in front, this is 
what we have ended up with, is--here, let me just take this, 
here. You can see, again, the only pilots that are on the 
license that has been produced at millions of taxpayer dollars, 
the only pilots on the license that is now in use is--happened 
to be Wilbur and Orville Wright. And the back of this 
particular license has a metallic strip. And, unfortunately, it 
does not have the biometric capability that we asked for in 
law.
    So, they spent millions of dollars in producing this 
pilot's license that, again, does not meet what we believe is 
required by law, and does not provide us with identification. 
And although we do not have anyone from TSA here today to 
testify, in fact, TSA will not accept this as an identification 
card.
    What is even more disturbing is we spent about $420 
million, we will be approaching half-a-billion dollars on 
producing a transportation worker identification card. We have 
passed in law requirements on a number of occasions, and I 
believe at least four times into Federal law, the production of 
a transportation identification card that would have a 
biometric measure, capable of having several measures, both 
thumbprint, iris, and then also, of course, a photograph of the 
transportation worker.
    Having spent nearly a half-a-billion dollars on this, we 
have produced a card. They have been distributed. We do have 
biometric capability, we do have a photograph. However, we do 
not have a reader, and we have yet to establish a standard or 
agree on a standard for a biometric measure of iris.
    So, in both of the programs, while the pilot license is 
almost a complete disaster, what concerns me is that TSA has 
now embarked on two programs, one in, I think, 2007--one was a 
crew access program, and--creating several pilot programs 
working, I think probably with good intentions, with some of 
the pilot associations. But in 2007 they worked on CrewPASS and 
in 2010 the administrator announced his intent to expand a new 
program, and that is Known Crewmember, to seven airports at the 
end of last year.
    So, we have a pilot's license that TSA will not accept as 
identification, it doesn't meet the criteria set forth in law. 
We have a transportation worker--and we spent millions of 
dollars on that--we have a transportation worker identification 
card which is in use now, but we don't have the use or 
acceptable reader, nor do we have iris standard developed. So, 
that is where we find ourselves.
    I am disappointed that TSA again has declined this 
committee's invitation to testify on their action and their 
current work in developing a biometric crewmember credential 
and pilot's license. I don't believe that the industry should 
be responsible for setting a standard or developing a pass that 
should be--that would be used and would be acceptable. I 
believe that is clearly the responsibility of the Federal 
Government, and something that we have attempted to do by law.
    Now, since TSA has decided not to show up here today, I 
have consulted with the chairman of the Homeland Security 
Committee and also with an investigative panel on which I also 
serve, and I can assure you that we will have TSA testifying, 
either at a joint future hearing with one of those two 
committees to, again, try to get some responsiveness from an 
agency that, for some reason, does not want to respond, nor 
participate in developing an identification card, both for 
transportation workers or for pilots or for the many 
individuals who are involved in transportation work and do so 
in a cost-effective and timely manner.
    So, that is where we find ourselves today. Very 
disappointed. A huge amount of taxpayer money has been 
expended. You would think that we could also have some better 
response from the agency that is primarily charged with this.
    Come on in, Mr. Farenthold. We can put Members right up 
here, too. We are a little squeezed for space today, but those 
arriving a little bit late will get the front row. We haven't 
used this hearing room too much because, again, the size of the 
committee. But we have--every bit of space in the Capitol that 
we, I think, the Transportation and Infrastructure Committee, 
has available is being used today.
    Mr. Boswell, come up and join us up here. And staff is 
welcome to just put a chair up here. I want to make sure all of 
our Members are accommodated.
    But again, I thank the Members for joining us today. I wish 
it could be under different circumstances, and we could have 
the cooperation of TSA, but we do not have it today. But we 
will get it in the future, as I said, one way or the other.
    With that, I would like to recognize any other Members for 
opening statements. Mr. Long? Mr. Cravaack?
    Mr. Cravaack. Thank you, Mr. Chairman, and thank you for 
all the people that have come out today. This is a very 
important issue, and kind of near and dear to my heart, so I 
appreciate you coming here today.
    I would like to welcome the witnesses on our panel. I look 
forward to hearing your testimony regarding the FAA and TSA's 
biometric transportation credential efforts. I am very 
disappointed that TSA is not here today. I had some very 
pointed questions that I wanted to ask them, and I am very 
disappointed they are--for them not being here today.
    As you know, the United States transportation system 
remains a target and a means through which the terrorists seek 
to attack our homeland. I appreciate your efforts taken in the 
wake of 9/11 to protect our transportation system from attack. 
A number of bills have been enacted to direct a cost-effective, 
risk-based approach in protecting our credentialing system.
    To date, a number of our statutory directives requiring the 
issuance of biometric credentials have not been implemented, or 
have been partially implemented. To me, this is very 
disappointing.
    I look forward to hearing from our witnesses about what is 
presently being done to comply with the law, and why there has 
been such a delay to this point. I thank you again, and I look 
forward to hearing your testimony, and I yield back, sir.
    Mr. Mica. Thank you. And I would like to recognize any 
other Members that may have opening statements. You are 
recognized, Mr. Landry.
    Mr. Landry. Thank you. It is good to be so close to you 
all.
    [Laughter.]
    Mr. Landry. I thank the Chairman for calling this hearing 
today. I certainly want to ensure that our transportation 
system is as secure as possible. Every day our transportation 
system moves more than 1.4 million shipments of hazardous 
materials, any of which could potentially be used to harm 
Americans. Securing all this cargo is daunting. No one doubts 
that fact. But it is also achievable.
    Unfortunately, some of our security interests--security 
entities have lost sight of an important part of the 
transportation security system feasibility. I wish that the 
Transportation Security Administration had accepted our 
invitation to come to today's hearing, because they need to 
hear this. Right now, TSA is worried about their own 
feasibility, what is easiest for them. I think that TSA needs 
to worry more about what is feasible for the worker.
    To me, TSA's requirement that a worker--for a worker to 
make two visits to the TWIC enrollment center, one to enroll 
for their TWIC card and another to pick up the card is the 
definition of an unnecessary burden. Now, I know that TSA has 
said that a TWIC card must meet the FIPS 201 standard, and must 
be in the worker's possession at all times, and I know that the 
soon-to-be-released GAO report will probably say that mailing 
is not an option, but what about other solutions? Are we 
honestly telling transportation workers, ``Sorry, guys, your 
government has thought long and hard about this situation and 
the entire universe of possible solutions we have been able to 
brainstorm, and all we can come up with is to get''--I am 
sorry--``we have been able to brainstorm is you come to get the 
card or we mail it to you, and our accountant tells us that the 
last one is no good,'' meaning mailing it to you.
    Come on. We are all smart people here. We can figure out a 
way that the worker does not have to make a second trip just to 
pick up the card. For some TWIC workers, this means a trip of 
hundreds of miles, and they have to make this trip twice. We 
need to do better than that.
    I also have another issue with the TWIC card. Recently a 
company in my district got in trouble with DHS because they did 
not have I-9's on file for all of its employees, even though 
the company had a record of all of these employees' driver's 
licenses, birth certificates, Coast Guard licenses, and a TWIC 
card. Considering the fact that everyone would have to have--
considering the fact that everything one would have to have to 
secure a TWIC card is at least that stringent, if not more 
stringent, than the information one needs to secure an I-9, 
can't we change the law to ensure that a TWIC card can serve as 
an I-9, thereby lessening the paperwork that companies such as 
the one in my district are required to comply with?
    Again, I wish that the TSA were here to address these 
issues, but I do not know--but I do know they are watching this 
hearing. So I just wanted to put them on notice about the 
concerns on the TWIC card.
    Thank you, Mr. Chairman.
    Mr. Mica. Thank you. Any other Members seek recognition?
    [No response.]
    Mr. Mica. Well, again, the order of business will be we 
will turn to our witnesses. And, as you can see, Mr. Pistole 
has the--the administrator of TSA--has refused to appear. It 
also concerns me that Mr. John Schwartz, who is the TWIC 
program manager, transportation worker identification 
credential program manager of--and he is with the Department of 
Homeland Security--has also refused to appear before the 
committee today.
    For those Members who have joined us just lately, we are 
consulting with both the Homeland Security Committee, Oversight 
and Government Reform Investigative Committee, and we will have 
them appear one way or the other, either in a joint hearing or 
through the other committees. Because, again, I thought it was 
not unreasonable for us to ask them to comment on this.
    And since they now are involved in two pilot--have been 
involved in two pilot programs to develop pilot licenses and--
or identification cards that they would be using in lieu of a 
pilot's license, and we are producing a pilot's license at 
great public cost, I thought the least that they could do is 
come and provide us with a status of both of those programs: 
TWIC, which is the transportation worker identification card; 
and the pilot's license issue.
    We also tried to meet with them behind closed doors. The 
intent of the committee's work is not to embarrass any agency. 
And we did conduct a meeting. Some of you participated in that 
behind closed doors. And we, unfortunately, had the same 
response and unwillingness to work with the committee from TSA. 
So I can say to all the Members they are not building a very 
good strong warm, fuzzy relationship in their effort to assist 
us.
    And I know they have been distracted this week. If you just 
watch television and--you see the current issues of an agency 
that is struggling to gain control of itself and its important 
security mission.
    So with that being said, we are pleased to have two 
witnesses this morning who can shed some highlights and review 
with the committee the progress both of the pilot's license, 
which was mandated by law, prescribed by law to FAA, and they 
had undertaken that mission with some difficulty, as we learned 
in both the closed door meeting, and we will hear more about 
today. So we have Peggy Gilligan, who is associate 
administrator for the--for aviation security of FAA. And Ms. 
Cita Furlani, the director of Information Technology Laboratory 
of the National Institute of Standards and Technology, who sets 
some of the standards that are required for these 
identification documents.
    So, with that, maybe we could--I could recognize first Ms. 
Gilligan, and you could give us sort of a history of the 
problems we have encountered with the pilot's license and also 
the status of where we are going from here.
    So, welcome, and you are recognized.

  TESTIMONY OF MARGARET GILLIGAN, ASSOCIATE ADMINISTRATOR FOR 
 AVIATION SAFETY, FEDERAL AVIATION ADMINISTRATION; AND CITA M. 
FURLANI, DIRECTOR, INFORMATION TECHNOLOGY LABORATORY, NATIONAL 
 INSTITUTE OF STANDARDS AND TECHNOLOGY, DEPARTMENT OF COMMERCE

    Ms. Gilligan. Thank you, Mr. Chairman. Thank you, Chairman 
Mica, Congressman Rahall, and members of the committee. I want 
to thank you for the opportunity to appear before you today on 
the issue of embedding biometric identifiers on pilot 
certificates.
    I know that this issue has been of significant interest to 
you, Mr. Chairman, because, as you mentioned, we have had 
several meetings on the topic. In these meetings, it has been 
clear that FAA has not acted as directed by this committee, not 
as quickly nor as comprehensively as intended. But I would like 
to outline what FAA has done in the area, and how we intend to 
move forward.
    The purpose of the pilot certificate for many years was 
simply to document that the holder met the required 
aeronautical knowledge and experience standards to fly an 
airplane. For decades, paper certificates worked effectively 
for that intended purpose.
    Starting in the late 1980s, law enforcement agencies, with 
mandates other than aviation safety, began to see potential 
misuse of pilot certificates as they engaged in activities 
related to the war against drugs. In 1988, the Drug Enforcement 
Assistance Act required FAA to phase out paper certificates and 
replace them with tamper-resistant certificates. As of April 
2010, all pilots have received enhanced plastic certificates. 
Those certificates were at a cost of $2.7 million for all of 
the 700,000 pilots that we have in our registry. We continue to 
replace certificates for mechanics, dispatchers, and other 
certificate holders, and those will be completed by March of 
2013.
    Mr. Chairman, I know you question the value of our new 
certificates, but I can assure you that the colors, holograms, 
and even the images of Orville and Wilbur Wright have made it 
very difficult for our new certificates to be forged.
    After the tragic events of September 11, 2001, with 
aviation playing such a central role in the disaster, 
additional risks were identified for pilot certificates. In 
October 2002, we required all pilots to carry a government-
issued photo ID any time they were exercising their pilot 
privileges. This way, any FAA inspector who asked for pilot 
credentials, and every fixed-base operator who leased an 
aircraft, could confirm the person's identity, as well as their 
qualifications to fly.
    The Intelligence Reform and Terrorism Prevention Act of 
2004 imposed additional requirements on the certificate, beyond 
just being tamper-resistant. It called for a photograph and 
that it be capable of accommodating a digital photo or other 
biometric identifiers. We did not act right away. We did not 
act quickly. Without any experience in the area of----
    Mr. Mica. If I could interrupt the witness for just a 
second, some of the Members came in late, and Mr. Boswell just 
gave us his pilot's license. And, as you just heard the witness 
testify, Congress required that there be a photo on the ID, a 
biometric measure, and it be durable. Well, the license that 
was produced actually meets one of those requirements. It is 
durable. The only pilots to appear on the license that was 
issued--and this is Mr. Boswell--is Wilbur and Orville Wright. 
And although I guess he looks a little bit like Wilbur----
    [Laughter.]
    Mr. Mica. This is the ID that millions of dollars has 
produced. And the biometric strip, or the metallic strip here, 
does not have the biometric capability that was required in 
law.
    So, thank you for loaning us this. And it is Exhibit A. We 
had another one here, but you can see what was issued. Yes, 
yes, that was a bigger one. But this is the real one. And thank 
you, Mr. Boswell, for handing that to the Chair.
    And I apologize for interrupting, but it does show what has 
been produced. You may continue.
    Ms. Gilligan. Thank you, sir. Without any experience, or 
expertise in the area of biometrics, we understood that other 
government agencies such as NIST were developing biometric 
standards. And at that time the newly formed Transportation 
Security Administration was looking at what would be the 
appropriate identifiers for transportation workers. We were 
hopeful not to duplicate or otherwise interfere with those 
efforts and, in fact, to take advantage of them.
    After waiting far too long, in November of 2010 we issued a 
notice of proposed rulemaking that proposed to require that all 
pilots, including student pilots, possess certificates with a 
digital photo, which is generally considered to be a biometric 
identifier. The comment period for that rulemaking closed in 
February.
    Due to the broad scope and the economic impact of the rule 
on over 700,000 certificated pilots, we proposed to phase in 
the requirement over a 5-year period. FAA recognizes that this 
timeframe is not consistent with the act's direction, which 
called for us to begin modifying certificates in 2005. But we 
are working hard to finalize that rulemaking.
    While we proposed the requirement for the digital photo, we 
didn't know what other type of biometric information to include 
on the certificate, or how to set up the infrastructure to 
collect and protect fingerprints or other biometric data from 
700,000 pilots. So we did not move forward, as the committee 
expected.
    We all support the goal of enhancing aviation security and 
maximizing resources in order to achieve a single, universal 
security credential, incorporating biometric data that meets 
common standards. To meet this goal we will continue to work 
with TSA on its proposal to establish a universal ID for 
transportation workers.
    We need to understand how best to move forward to improve 
the use of biometric data to ensure the security of the pilot 
community and enhance aviation security. This requires 
coordination among government agencies and cooperation with 
airlines, industry trade associations, and aviation labor 
organizations. We recognize the advantages of developing 
security-enhancing uses for airmen biometrics, and we look 
forward to working with this committee as our efforts progress.
    Mr. Chairman, I will take whatever questions.
    Mr. Mica. Thank you. And we will hold questions. We have 
got another witness that we want to hear from first, and that 
is the director of the information technology laboratory, at 
the National Institute of Standards and Technology, who helped 
develop some of those standards and requirements for these 
identification documents, and that is Cita Furlani.
    Welcome, and you are recognized.
    Ms. Furlani. Thank you, Chairman Mica and Ranking Member 
Rahall and members of the committee. I am Cita Furlani, 
director of the Information Technology Laboratory at the 
Department of Commerce's National Institute of Standards and 
Technology. Thank you for the opportunity to appear before you 
today to discuss our role in standards and testing for 
biometrics and identity management.
    NIST's mission is to promote U.S. innovation and industrial 
competitiveness by advancing measurement science, standards and 
technology in ways that enhance economic security and improve 
our quality of life.
    Founded in 1901, NIST is a non-regulatory Federal agency. 
We have more than four decades of experience in improving the 
quality, usability, and consistency of human identification 
systems, responding to government and market requirements. We 
perform research and collaborate with other Federal agencies, 
academia, and industry partners to support timely development 
of biometric standards and to develop required conformance 
testing architectures and testing tools.
    NIST has developed standards to support Federal agencies' 
information security requirements for many years beginning in 
the early 1970s, with the enactment of the Brooks Act. Through 
the Federal Information Security Management Act, or FISMA, of 
2002, Congress reaffirmed this leadership role in developing 
standards for cyber security. FISMA provides for the 
development and promulgation of Federal Information Processing 
Standards, or FIPS, that are compulsory and binding for Federal 
computer systems other than national security systems.
    The responsibility for the development of FIPS rests with 
NIST. The authority to promulgate mandatory FIPS is given to 
the Secretary of Commerce. NIST develops FIPS when there are 
compelling Federal Government requirements such as for security 
and interoperability and there are no acceptable industry 
standards or solutions.
    To satisfy the requirements of Homeland Security 
Presidential Directive 12, NIST developed FIPS 201, entitled, 
``Personal Identity Verification,'' or PIV, ``of Federal 
Employees and Contractors.'' It was approved by the Secretary 
of Commerce and issued in 2005. 6.2 million cards that comply 
with FIPS 201 have been issued to Federal employees and 
contractors. In addition, the Department of Defense Common 
Access Cards are conformant.
    FIPS 201 incorporates in NIST Special Publication 800-76, 
which describes technical specifications for the biometric 
credentials of the PIV system, including the PIV card itself. 
This document is currently being updated to include optional 
use of compact iris image records, with iris records required 
in the absence of fingerprints. This update is an important 
step forward in the use of biometric data for PIV.
    NIST is engaging the public in the development and review 
of this document, which is expected to be released soon for 
public comment. Under the provisions of the National Technology 
Transfer and Advancement Act, and OMB Circular A-119, NIST is 
tasked with the role of encouraging and coordinating Federal 
agency use of voluntary consensus standards, and participation 
in the development of such relevant standards.
    In fact, United States-led international efforts have 
produced standards publicly adopted by the European community 
and by Australia. We continue to work with these standards 
committees to ensure compatibility with Federal credentials, 
and to address the needs of non-Federal communities.
    Conformance testing to biometric standards measures whether 
a product's implementation faithfully implements the 
specification. NIST actively contributes to the development of 
these conformance testing methodologies. The usability and ease 
of use of biometric systems is an overarching need for deployed 
biometric systems within the Federal Government. We have 
applied our expertise in usability and biometrics to study 
biometric systems in border security and airport environments.
    With NIST's extensive experience and broad array of 
expertise both in its laboratories and its successful 
collaborations with the private sector and other government 
agencies, we are actively pursuing the standards and 
measurement research necessary to deploy reliable, usable, 
interoperable, and secure identity management systems.
    Thank you for the opportunity to testify today on NIST's 
activities in biometrics and identity management. I would be 
happy to answer any questions you may have.
    Mr. Mica. Well, thank you, and I thank both of our 
witnesses. We are, again, disappointed that TSA would not show 
up.
    We are right now engaged in producing a transportation 
worker identification card and making certain it is properly 
deployed, and also involved in creating a credential for pilots 
that would be used instead of current pilot's licenses for 
identification, since the pilot's license that we now have is 
not acceptable to TSA.
    Let me just ask Peggy Gilligan, who is with FAA and 
overseeing aviation security and documentation for the pilots, 
if that is, in fact, the case, do you know that TSA will accept 
the pilot's license for identification purposes that you have 
produced?
    Ms. Gilligan. You are correct, sir. It is not used as an 
identification method at this point. Again, as I testified----
    Mr. Mica. Because it does not have a photograph. Is that--I 
guess that is the principle reason.
    Ms. Gilligan. I would assume so. Again, right now, the 
certificate demonstrates what your qualifications are, as a 
pilot, which is historically the reason that we issued it. We 
issued it so that we would know that, in fact, someone was 
competent and qualified to fly an airplane.
    Certainly, as we look at the biometric requirements, it may 
be able to fill the role of an identification card, and that is 
part of what we are coordinating with TSA. We want to assure we 
don't have a proliferation of identification cards, to your 
point, sir.
    Mr. Mica. How much have we spent on the program so far?
    Ms. Gilligan. For the FAA licenses?
    Mr. Mica. Yes.
    Ms. Gilligan. It has cost us about $2.7 million to replace 
all of the pilot certificates, and we have about 700,000 active 
pilots.
    Mr. Mica. And are they all--have all of the pilots received 
the new license now?
    Ms. Gilligan. As of April 2010, this month, they will have 
completed that. Yes, sir.
    Mr. Mica. And the reason for not having either the 
biometric standard or--well, the photograph would be sort of a 
simple thing. Was there any reason that they didn't include the 
photograph as, I thought we directed fairly clearly by law? Is 
there any reason for not having the--at least the pilot's 
photograph, instead of Wilbur and Orville?
    Ms. Gilligan. Yes, sir. When we began the program to 
replace the certificates with the plastic tamper-proof 
certificates, that was in response to a different legislative 
direction that we had received earlier. That process was 
already underway, and we allowed that to go forward and it was 
completed.
    We have now, as you know--and I will acknowledge and take 
responsibility for being way too late in the process--but we 
have now proposed to require digital photographs, as well as to 
try to develop a process for the 700,000 pilots to be able to 
provide those photographs in a convenient way around----
    Mr. Mica. How long will it be, and how much is--is that 
going to be another $2.7 million to also get out new--or is it 
going to cost more or less?
    Ms. Gilligan. The notice of proposed rulemaking has already 
been out for comment. The comment period has closed. And so now 
we are considering the comments from the pilots about the 
program. We will issue the final rule within about a year, and 
then we will set a timeframe for that replacement process. 
Because, again, there are----
    Mr. Mica. So it will be a year before you establish the 
rule, and then you start replacing those cards after that. And 
what is the estimated cost?
    Ms. Gilligan. We had proposed a 5-year time period for 
completely replacing all of the pilot certificates. We will 
consider that time period as we go to the final rule. That may 
change. And I apologize, sir, I don't have the number off the 
top of my head. The notice of proposed rulemaking did have the 
proposed cost, or----
    Mr. Mica. So that would take us----
    Ms. Gilligan [continuing]. The anticipated cost. I can 
provide that.
    Mr. Mica [continuing]. To 2012 before we get a decision on 
which way we are going, and with what kind of card. And then it 
will take us another 5 years to get the new cards out, and I am 
sure at least another 2.7--2017, that would be about a decade 
to get the cards out, as they should be produced.
    Ms. Gilligan. I understand your frustration, sir.
    Mr. Mica. OK.
    Ms. Gilligan. But we do have a community of 700,000 pilots. 
It will take a while for us to be able to replace those 
certificates.
    Mr. Mica. And finally, when you do the card--now the 
standards have been in place for some time. At least for part 
of the biometric measure, which is the fingerprint, and also 
the information and data arranged in an order set by the--what 
do you call it, NIST----
    Ms. Gilligan. NIST.
    Mr. Mica. National Institute of Standards and Technology. I 
should say the whole thing, so people know what we are talking 
about. But they have, in fact, set the standards. Other 
agencies have adopted the cards.
    When we did our little roundtable behind closed doors we 
saw the cards that most of the other agencies have produced. 
What prompted some of this, Members, is we also have received a 
Coast Guard--one of the Coast Guard officers showed me his 
identification card, which is in compliance with the standards 
that have been set, and has incredible capabilities, including 
computer access from anywhere, and is encoded with, again, all 
of the information that is necessary for that individual, both 
for identification and then for certain types of access. But 
those standards are available. And the new card, I would 
imagine, would meet those standards. And it would have a 
photograph.
    And just a final question to Ms. Furlani. The biometric 
standard for iris, that is still in progress. And while we have 
some readers, we have 1.5 million TWIC cards that have been 
issued, but we really don't have readers that are being used on 
a regular basis. Some, I learned, were approved, but they are 
not being used. So, we have identification card, which has part 
of the biometrics.
    Your--so it is a twofold question, two-part question. When 
will you finish the iris capability? And then, when would we 
have a reader that could actually be used and employ both iris, 
fingerprint, and of course, it would have the photo?
    Ms. Furlani. The iris standard will be--the draft 
publication will be published in the next--very soon, within 
days.
    Mr. Mica. In the next very soon?
    [Laughter.]
    Ms. Furlani. Well, hopefully before next week.
    Mr. Mica. All right.
    Ms. Furlani. But it is in progress. And what that is, of 
course, has been worked with the industry partners who do 
develop the cameras that collect the iris information. And one 
reason that the standard will be so readily adopted is because 
there are many vendors producing those cameras. So they are 
available, and they will agree with--be able to use the 
standard.
    Mr. Mica. And when would this standard be issued?
    Ms. Furlani. In about--well, we put it out for public 
comment, we review all those comments, and if there are 
significant changes that come in, then we would put out a 
second draft. So it is over a period of months, but it is to 
be----
    Mr. Mica. By the end of the year?
    Ms. Furlani. Oh, yes, yes.
    Mr. Mica. Oh, yes. OK. So we will have a card that we have 
asked for by law, or--and standards for identification card. I 
think we have asked for it at least four times in law, various 
legislation, some time this year. And we will have all those 
requirements and a standard. And you will also be adopting 
those standards, Ms. Gilligan, for FAA for the pilot's license.
    Ms. Gilligan. Yes, sir. We certainly look at those. Again, 
I think the infrastructure necessary to use----
    Mr. Mica. OK. Well, that might be a--Mr.--we have a vice 
chairman of the aviation subcommittee, may be in conference. We 
could be very specific about what they should do, at least 
adopting the standards.
    And when we held this behind-closed-doors meeting, we had 
all the agencies and DOD and others, except for TSA and 
Homeland Security, of course, but--and even the House Sergeant 
at Arms, because we thought it would be good for House Members 
to have a card that also incorporates the standards that have 
been adapted to. It would just--I think it would make sense. 
Sometimes, you know, I have these wild ideas.
    But again, let me yield to other Members. Let me go--Mr. 
Cravaack, our vice chairman, and then we will go to other 
Members for questions. You are recognized.
    Mr. Cravaack. Thank you, Mr. Chairman. And, once again, 
thank you for coming here today on a pretty important issue, 
actually, from my perspective.
    One of the things I am kind of concerned about is TSA. And 
I wish--again, I wish that TSA was here today. But their new 
program, Known Crewmember, is the FAA aware of this program? 
Were they able to discuss with you what their intentions were, 
and what were your thoughts on that?
    Ms. Gilligan. I am aware of the program, I have talked with 
some of the representatives from the Air Line Pilots 
Association who were involved in it, as well as the Air 
Transport Association. So I am familiar with the effort, which 
is an effort to allow crewmembers to pass through security 
perhaps a little more quickly, because of the known nature of 
their need to be at the airport and inside the secure area.
    Mr. Cravaack. Right. And all they are doing is using their 
airline ID, correct?
    Ms. Gilligan. That is correct.
    Mr. Cravaack. To go through. And that is the only source of 
identification?
    Ms. Gilligan. As I understand it, they are going to use the 
airline ID, the employee ID number, and have access to a 
computer base that will confirm that that number is associated 
with the individual presenting the card.
    Mr. Cravaack. OK. So they do back it up, via----
    Ms. Gilligan. My understanding is that that is what it will 
be. I don't know where they are in the pilot programs.
    Mr. Cravaack. Yes. One of the things I just caution is that 
sometimes, you know, in not-too-distant history, in a FedEx 
incident where there was a disgruntled employee that got access 
to a jump seat in a cockpit, took the crew axe out and 
butchered the pilots. So we want to make sure that that 
obviously does not occur.
    And with that said, I do applaud trying to expedite 
crewmembers--and I would say crewmembers including all flight 
crew--getting through these systems. But it does take a--by the 
way, Mr. Chairman, I do like the card of Orville. I thought it 
was a very nice card, by the way, it is very nicely done.
    Ms. Gilligan. Thank you.
    Mr. Cravaack. And--but I do think that we do need an 
expedited process of getting flight crews through there, 
because I remember going through and them pulling tweezers out 
of my bag when I had a huge crash axe right behind me and quite 
a large aircraft that I could have done a lot of things with.
    So, you know, being able to trust pilots is essential. But 
with that said, we have to have very updated data to make sure 
that there is not any pilots or crewmembers that would be 
trying to infiltrate the system, you know, by somebody--
somebody had an action against them, had their ID pulled, or 
used some other ID to get through. That is what concerns me the 
most. And I think biometric devices like a retina scan or 
something like that would be very good in this process, and 
give a lot of faith and confidence to the public, as we go 
through. So, I appreciate that.
    What is it--in regards to your knowledge with the--sir, I 
don't have a counter on here, I don't want to take too much 
time, but I do not see----
    Mr. Mica. No, we do not have a counter today, but just to--
--
    Mr. Cravaack. OK. Good.
    Mr. Mica. Try to share the time.
    Mr. Cravaack. OK, thank you. To your knowledge, did TSA 
consider a biometric pilot license instead of airline IDs prior 
to this?
    Ms. Gilligan. We have had ongoing and longstanding 
conversations with TSA on exactly what should be the way to 
identify pilots--in this case, and transportation workers, 
generally. And I know the Chairman shares a concern about a 
proliferation of identification----
    Mr. Cravaack. Right.
    Ms. Gilligan [continuing]. Cards for different purposes. 
But we have not been very successful in drawing those 
conversations to a conclusion. And I know that is the source of 
the Chairman's frustration. But we will continue to work that.
    Mr. Cravaack. And if I could just offer a suggestion, I 
think the airlines themselves would be more than happy to 
partner with you, because we all had IDs with pictures on them. 
So you have a source of--and those have to be--I can't remember 
how many years they had to be updated, so I am sure that they 
could partner with you, as well.
    And I don't want to take too much time here, so--but thank 
you very much, again, for coming. I do appreciate it. Again, I 
wish we had had other members--the TSA--because I think it 
would be a very good conversation to have. And, Mr. Chairman, I 
yield back. Thank you.
    Mr. Mica. Thank you.
    Ms. Gilligan. Thank you.
    Mr. Mica. Other Members for questions? Mr. Hanna?
    Mr. Hanna. Ms. Gilligan, I am a private pilot, an amateur 
pilot, but I spend a lot of time flying. And I just had my 
license redone about a year ago and it cost me $2 to get 
Orville and his brother's photograph on my card.
    I thought at the time--and I know a lot of--I know hundreds 
of pilots spend a lot of time around airports. They are kind of 
like the bars for people who don't drink, you know, they are 
real great places to hang out.
    [Laughter.]
    Ms. Gilligan. I am glad to hear they don't drink.
    Mr. Hanna. No, they don't. No. That is one thing pilots 
don't do is drink. It is--it really works better that way.
    Ms. Gilligan. Yes.
    [Laughter.]
    Mr. Hanna. The--my point is it cost me $2 to get my license 
replaced. You spent $2 million. You could have easily charged 
me $5 and had it cost you nothing.
    And you also stated that it took you 2 years to cycle 
through 750,000 people, one of which was me. It seems to me 
then, if that is the case, why should it take a year to do 
something you know ultimately you are going to have to do? And 
why should it take, beyond that, another 5 years to do it? 
Because I can assure you there are no pilots who are against 
this. If there is anybody who wants security at airports, it is 
pilots, since, you know, they are busy when they are flying and 
the last thing they need is trouble behind them.
    It seems like--based on your own experience and what you 
have been able to accomplish in the past, it seems like a long 
time.
    Ms. Gilligan. I understand that, sir. This is one of a 
number of rulemakings we have underway. We have another half-
dozen rules which were directed by this committee last summer 
with very short timeframes. So part of this is a resource issue 
at FAA. But we will continue and finalize the rule.
    Unfortunately, there are some pilots who do not necessarily 
agree with this. We got about 400 comments suggesting that 
there are lots of other ways pilots have identification, and 
they do not consider their pilot certificate should be used for 
identification purposes. They use their pilot's license for a 
different reason. So, we will have to work our way through 
those comments and make sure we are balancing the concerns 
identified.
    Then we have the dilemma of how to collect photos, and make 
sure that the person giving us the photo is the person whose 
certificate we want to issue. So we are looking at the 
infrastructure of where will pilots have to go to be able to 
bring us their photos or provide us the digital photos. So 
there are some logistical issues involved with it, as well, all 
of which we are working through as we finalize the rule.
    Mr. Cravaack. Would you yield for a question?
    Mr. Hanna. Oh, sure.
    Mr. Cravaack. My--one of the questions I have is who is--
who actually needs the pilot's license with a picture on it? 
Usually only those flying in a commercial status. So all 
pilots, not necessarily, would need to have a picture or 
biometric devices associated with their pilot's license, only 
those working, for example, that would have to have access to a 
secure area. Don't you think?
    To be honest with you, for a security measure, only those 
individuals would truly need to have the type of identification 
that you are talking about. So not all pilots--not all 700,000 
pilots--need to have this type of identification.
    Ms. Gilligan. Well, the committee direction does require 
all pilots. And, in addition, at the time, during the debate, 
there was discussion about the potential security risk of 
general aviation aircraft, and the idea that FBOs should be 
able to properly identify people to whom they are leasing 
aircraft. That these pilots would have somehow been vetted.
    Now, of course--and I probably should have mentioned this 
because some of the new Members may not know--the entire airman 
registry is vetted through TSA and through other law 
enforcement organizations regularly. It is now vetted 24 hours 
a day, 7 days a week, 365 days a year, in an effort to identify 
any known risk or threat from someone who may hold one of our 
certificates. And if we are notified by TSA that there is a 
risk, we revoke certificates based on the TSA determination of 
a security risk.
    So, we have addressed that sort of known risk when we are 
able to identify it. So that is ongoing. But right now the 
legislation does anticipate all pilots would, in fact, get the 
new certificates with photographs and biometrics.
    Mr. Cravaack. I will have to educate myself more on that. 
Thank you very much, and I yield back, sir. Thank you.
    Ms. Gilligan. Sir, we will be glad to come and talk with 
you any time to let you know what we have done and where we are 
going. Thank you.
    Mr. Mica. OK. Mr. Hanna, were you finished?
    Mr. Hanna. Do you happen to know AOPA's position on this? 
Have they rendered one?
    Ms. Gilligan. They have. I am sure they commented, sir. I 
don't recall.
    But I agree with you. Fundamentally, there is not a lot of 
disagreement.
    Mr. Hanna. I use a number of different airports, so I carry 
a lot of cards.
    Ms. Gilligan. Yes.
    Mr. Hanna. So, for what little it matters, I would like 
one.
    Ms. Gilligan. Absolutely. And the Chairman has made that 
point, as well.
    Mr. Mica. Well, if the gentleman will yield----
    Mr. Hanna. Yes.
    Mr. Mica. You know they do have--TSA does have several 
programs. They started one in 2007. Now we are on another one 
in 2010 to produce credentials. But I don't believe it is the 
role of the Air Line Pilots Association, the commercial 
airliners, to produce identification that should be acceptable 
by TSA or acceptable as a pilot's--in lieu of a pilot's 
license. So, while we are producing a pilot's license already, 
why not have that capability?
    And the standards also that the National Institute is 
setting, the type of card--and embedded in it you can have 
encodement for all kinds of different levels of access. So--but 
if we had--well, if we had true biometric measures of both iris 
and thumbprint, and a photo, we would have a triple check that 
that individual is that individual, that we have an honest 
documentation that they have access to certain levels of 
activities. And again, we are not producing a whole host of 
identifications that go on and on, nor is the--a private 
company setting the standard that is acceptable.
    So, that is where we are. And I don't care if AOPA or any 
of the others or the airlines like it. They can all go fly in a 
different direction. But we will make certain--I can assure 
you, as sure as we are at this hearing today in this room, that 
we will have this matter resolved in the FAA legislation that 
will pass Congress very shortly. So this is an important area.
    Mr. Bucshon, you have been waiting, and then we will go to 
Mr. Farenthold.
    Dr. Bucshon. Thank you, Mr. Chairman. I appreciate it. I am 
not an aviation person. Unlike some of the others, I was a 
physician prior to coming here.
    But I want to make a few general comments about government, 
and why I am here, and this is a classic example, I think, of 
why the American people are disgruntled with the Federal 
Government.
    In my view, I mean, the Congress has given directed orders 
to fix a problem that seems fairly simple. And I suspect most 
major private security firms could have solved this problem 
years ago. But the Federal Government continues to blame 
everybody, you know. Not having TSA here gives the people who 
are here plausible deniability that, well, it is the TSA's 
fault, and the TSA is going to say it is your fault. And I just 
want to say that this is one of the reasons why the American 
people want this government to change.
    You know, you commented on 400 comments that you received 
from the public on this issue out of 700,000 pilots that would 
be affected like this. And in medicine I would call that 
something that is called anecdote, which is--I know you needed 
to consider it, but statistically, this is an extremely small 
number of concerns for a problem that affects the entire 
American aviation system.
    So, I would like to know, Ms. Gilligan, what are the real 
reasons why we cannot fix this problem? Just cut through all 
the blaming of the agencies, cut through all of the politics. 
How come a problem that I think the private sector could have 
solved in a matter of months, literally, has taken years, and 
how come people can continue to say--even though Congress has 
directed this to happen, just come here and tell us that--and 
blame other people, and tell us why you have not done it?
    So, I want to know--I really want to know. What is the real 
reason why we cannot fix this?
    Ms. Gilligan. Yes, sir. In part, it is because we did not 
step up to do it in a timely way. In part, it is because FAA 
has no experience in biometrics or how to collect them or how 
to keep them and protect them----
    Dr. Bucshon. I am going to interrupt, just for a second.
    Ms. Gilligan. Yes, sir.
    Dr. Bucshon. There are many private companies around this 
Nation, I can tell you, that are experts at this. And this 
could have been solved, I mean, within weeks.
    You know, we do not have to reinvent the wheel every time 
something comes up. There is no reason why the FAA needs to be 
an expert in biometrics. There is private companies and other 
agencies within the government that are experts in this area. 
So I do not think that--that is not a valid excuse.
    Ms. Gilligan. It is not meant by way of excuse, sir. It is 
simply part of the facts. We did reach out to TSA, because they 
also had direction, as the Chairman has indicated, to establish 
biometric indicators for all transportation workers, including 
pilots. And we felt it would be appropriate to follow their 
lead. That lead has not led us to a conclusion. And so we are 
continuing to work the issue.
    I understand your frustration. I agree, this could have 
been done sooner and quicker. But we are where we are at this 
point, and we are working hard to try to move forward.
    Dr. Bucshon. But it has been how many years, approximately, 
since you were directed to do this that it has not been done?
    Ms. Gilligan. The direction, I believe, was in 2004.
    Dr. Bucshon. 2004. That is 7 years. I mean in anyone's mind 
in the American public that are watching this hearing, they 
would say that that is a ridiculous amount of time to solve 
this problem. And so----
    Mr. Mica. Will the gentleman yield?
    Dr. Bucshon. I will yield.
    Mr. Mica. I mean what you have learned today is it is 7 
years to date, and we have got another year to go before we get 
the comments, and then 5 years to deploy. So we are looking at 
more than a decade to, again, solve a relatively--well, it is 
not a simple requirement that Congress has set forth, but if 
you are frustrated, Mr. Bucshon, I have been here for the whole 
thing, so----
    [Laughter.]
    Mr. Mica. I am at the end of my wits on it. I yield back.
    Dr. Bucshon. And I do not--I am not--and there is no 
disrespect here among what you are trying to do, of course. But 
I think I am passing on the frustration of the American people, 
not only for this issue, but many others.
    And so, I really--I mean it is an honest question. What is 
the real reason why we cannot do this?
    Ms. Gilligan. Again, I think we looked for expertise from 
others, which has not been forthcoming. And the reality that 
is--putting in place an infrastructure to collect and protect 
biometrics for 700,000 pilots is a somewhat daunting task.
    So, at FAA we have the identification cards, as many 
agencies do. We have about 70,000 employees. We set up 170 
collection locations. For 10 times that number of pilots, the 
infrastructure needed to collect and protect this data is 
something that really needs to be carefully constructed. And we 
had hoped to draw on the expertise of others who do this, and 
we have not successfully completed that.
    Dr. Bucshon. OK, thank you. I yield back.
    Mr. Mica. Mr. Farenthold?
    Mr. Farenthold. Thank you very much, Mr. Chairman. And I 
agree. I am stunned at how long this process took. I walked in 
here, they took my picture and had a photo ID for me in a 
matter of 5 minutes when I became a freshman here that had 
holograms on it and was tamper resistant. You can walk into any 
amusement park in the country, buy a season pass, and they will 
put your picture on it. You know, in--OK, it probably takes 
longer than 5 minutes; he has got to wait in line to get it. 
So, I mean, I am just stunned by this.
    Let's talk a little bit more about the detailed biometrics. 
Ms. Furlani, how much data does it take to store appropriate 
amount of biometric data on a card? I mean is it a kilobyte? Is 
it a megabyte? I mean just give me an order of----
    Ms. Furlani. I do not have those numbers, but that is the 
challenge. You have put your finger on it. And that is one of 
the reasons it has been difficult on the iris--and it is only 
recently we found a way to reduce the amount of data that needs 
to be stored on the card that permits it to move into the 
standard. So it is----
    Mr. Farenthold. So we are talking about something that 
probably cannot be stored on a magnetic strip, it is going to 
require----
    Ms. Furlani. Oh, it needs a----
    Mr. Farenthold [continuing]. An embedded chip, or something 
like----
    Ms. Furlani. With encryption. You need to have the 
encryption to protect it.
    Mr. Farenthold. OK. Now, I assume also that you have got to 
have some way of telling whether or not that ID has been 
revoked or not. So it is going to be online. So, really, do you 
really need that much data? Can't you just store a serial 
number, have the user know a PIN, and it looks it up online at 
the same time it looks to see if it has been revoked?
    Ms. Furlani. You want all the intelligence on the cards, 
and that is what is the protective device. And you do need the 
PIN to identify that you are the person----
    Mr. Farenthold. Right. I mean I get--something you have, 
something you know, something you are.
    Ms. Furlani. You got it.
    Mr. Farenthold. But it seems to me there is going to have 
to be an online component to that anyway, to check revocation.
    Ms. Furlani. Correct. And that is what--when you have the 
readers, that is what they do, is confirm that there is a 
validity. And, as the Chairman said, what actual access each 
individual should have.
    Mr. Farenthold. OK----
    Ms. Furlani. Because that could be controlled through the--
--
    Mr. Farenthold. So, I mean, the technology is there. Clear 
had the cards that they embedded it on them. OK, admittedly, 
they went out of business. But, you know, they did not have the 
Federal Government behind them.
    Ms. Furlani. Well, it is a business model.
    Mr. Farenthold. Yes. You have got--CBP has something 
similar, their trusted entry program that I know of. American 
Express blue cards have a chip embedded in them. They cannot be 
that expensive.
    Ms. Furlani. Correct. And the reason they are not 
expensive, and are available, are the basic standards and the 
interoperability, so vendors can compete and build better 
products, and thus enter the market more acceptably. So----
    Mr. Farenthold. OK. So it is not expensive. We get the 
standards out. We ought to just be able to get this done in a 
short amount of time. Texas changed their driver's license--
what is it, over 10 million drivers in Texas--in a matter of--
you know, as soon as they all expired, all changed. Done.
    So, again, I am troubled by--and I am also troubled, Ms. 
Gilligan, you are talking about, well, how do we collect the 
pictures of the pilot. We ask our TWIC longshoremen to appear 
in person twice to have their picture taken. If anybody ought 
to be able to get around to a location easily, it ought to be a 
pilot. You know, they can fly to wherever you want.
    I mean, admittedly, I realize that is an exaggeration. I 
mean if you are in the middle of, you know, some rural area, it 
is potentially a long trip there. But I cannot believe that 
with a--the hardware to make these ID cards costs more than a 
couple of thousand dollars with just a picture. Obviously, a 
little bit more with the biometric data.
    Can you explain why pilots--we are asking less of our 
pilots than we are of our longshoremen?
    Ms. Gilligan. Well, again, sir, the pilot certificate was 
never intended as an identification medium. It was to show that 
the pilot was qualified for the function. Now we are trying to 
convert it, potentially, to an identification media, and are 
trying to incorporate either in that or some other single 
universal identification media, all the information that would 
be appropriate.
    Mr. Farenthold. It seems like more than trying. I think 
we--this Congress directed you to do that, didn't they?
    Ms. Gilligan. Yes, sir, they did.
    Mr. Farenthold. OK. My mom used to have a saying, or a 
little thing she used to do to us. She would say, ``Try to pick 
up that bottle of water.'' ``I am trying.'' ``We told you to 
pick up the bottle of water.'' There is a difference. I can try 
all day. So it was pick up the thing of water. And you can try 
all day long.
    Let's just--it just seems to me, and like Mr. Bucshon said, 
the government spends too much time not talking to each other 
and costing too much money. So I urge you to just find a way to 
get her done.
    Mr. Mica. Well, we will get it done, one way or the other, 
and with help from the members of the committee, there will be 
very specific direction in the FAA legislation, which should be 
on the President's desk before the end of May.
    Any other Members--Mr. Petri has joined us. Did you--Mr. 
Harris? Mr. Harris?
    Dr. Harris. Yes. Brief question, Mr. Chairman. You know, my 
questions were actually for the TSA folks. And, Mr. Chairman, 
you might enlighten me as to----
    Mr. Mica. You came a little late.
    Dr. Harris. I know. Did I miss them?
    Mr. Mica. So far they have stonewalled us. They have 
stonewalled the Committee on Science, Space and Technology, 
they have stonewalled the Committee on Oversight and Government 
Reform. So they are----
    Dr. Harris. Are they figuring out how to----
    Mr. Mica. And we are working with the leadership and with 
the other committees. And, as you know, I have even threatened 
to subpoena. We are trying not to do that, but to enlist their 
support. We have had a private meeting on this subject, and 
they refuse to appear.
    So you are coming in a little bit late in the explanation, 
but just to repeat for you that the two primary agencies that 
should be here, since TSA is also cooking up their second 
program for pilot identification, they are not here. So we are 
all frustrated by it, and we will take some steps to address 
it.
    Dr. Harris. Thank you. I guess they are just figuring out 
how to pat down the 6-year-olds today. I mean that is probably 
consuming----
    Mr. Mica. They have not had a good week, and----
    Dr. Harris. It is not a good week at all. I will just be 
very brief, and I will just share, you know, my colleague here 
from--fellow physician, freshman Member--I guess I am--I share 
his frustration because 7 years is a long time. I thought the 
EPA took a long time figuring out that spilled milk on a dairy 
farm is not the same as an oil spill. That only took them 27 
months. This is now 7 years.
    And I am puzzled because I know that in the hospital--you 
know, I have a biometric identification to sign out narcotics 
and it has been there for years, and it works, and it is--you 
know, it is remote location, you know, I have an identification 
card, I have a fingerprint, it is by telecommunications, 
obviously transmitted some central--checks out, makes sure I am 
me. I mean all that technology is there.
    So, you know, whatever we can do to help. I know the 
solutions and--are out there, and I--you know, I share the 
frustrations, but we ought to get it done. You know, our 
citizens deserve that level of security.
    But thank you very much for being here. I yield back my 
time.
    Mr. Mica. Any other Members seek recognition. Mr. Petri? 
No?
    Well, I want to thank you all for coming out. We do not 
mean to beat you up too badly, particularly you, Ms. Gilligan, 
but there is--as you can see, there is great frustration. I 
know there was some differences in direction by Congress.
    You have publicly stated that FAA did have problems, and 
was not successful in getting this out as Congress thought it 
should be done. We will give you some pretty specific 
directives, I think, in the bill that will be passed, and we 
will try to get this resolved quicker, and give you the tools 
to do that, hopefully.
    But again, TSA continues to spend a countless amount of 
money rescreening people, and they rescreen them because they 
do not know who they are. And now, for pilots, they are using 
all kinds of identification. And we have produced, at millions 
of dollars, a pilot's license that is not even an acceptable 
form of identification. So it is very frustrating for us, as 
Members of Congress, to not see the agencies at least operating 
better, more responsibly.
    We couldn't get into the TWIC program today because the 
program manager refused also to come before the Transportation 
Committee. So we really couldn't get into the problems with the 
nearly half-a-billion dollars that have been expended on the 
transportation worker identification card.
    We hope that our discussions over the past couple of months 
with the National Institute of Standards and Technology is also 
helping prompt expediting the final important element, and that 
is a biometric standard on iris. Once we get those standards in 
place, we need every agency to comply and utilize the good 
standards that have been adopted.
    We are about to recess, or adjourn the hearing. Did any 
other Members have any questions? Mr. Southerland?
    Mr. Southerland. I am--I just thank you, Mr. Chairman. Just 
a quick question.
    Ms. Gilligan, I know that you have heard our frustration 
that TSA and Homeland Security was not here. But in your work, 
you know, I guess you will continue to work with these 
agencies. I mean tell me about your working relationship with 
them. I mean I am aggravated, and I certainly want the record 
to reflect, you know, my aggravation that we are the people's 
House. And when the people's House has asked, the agency has to 
come and give a report to the people. To me, it is a blatant 
disregard and a blatant disrespect to the people. It aggravates 
me beyond my ability, really, right now to explain.
    But tell me about your working relationship with them. 
Since they have chosen not to come here today to address the 
people, what is your working relationship with them like?
    Ms. Gilligan. Well, sir, before 9/11, the Federal Aviation 
Administration also had responsibility for aviation security. 
After that event, and the creation of the Department of 
Homeland Security and the Transportation Security 
Administration, we have had to work very closely together to 
assure that whatever is being put in place to enhance security 
does not have a negative impact on aviation safety. So we work 
together with TSA quite closely on many, many issues.
    This issue of biometric identification for transportation 
workers seemed to us to be primarily their responsibility, with 
us assisting in whatever way we could. They have struggled. 
And, consequently, we have struggled with identifying what 
those biometric identifiers should be, the process for 
requiring them for the transportation worker, the creation of 
the infrastructure to collect the information and to have 
readers in locations, and to understand what is the reason for 
having that biometric information.
    So, we continue to have those discussions. And having heard 
the Chairman and the Members' frustrations, I can assure you we 
will continue to push hard to try to come to closure on what 
the standards should be, and how we should create the 
infrastructure around the country to take advantage of that.
    Mr. Southerland. Very good. I appreciate you being here 
today. I look forward to furthering this issue along, and 
hopefully they will yield to the will of the people. And I am 
sure our Chairman will pursue that, as well.
    So, Mr. Chairman, thank you.
    Mr. Mica. Well, again, I thank our two witnesses for 
appearing, both a representative from the National Institute of 
Standards and Technology and the FAA associate administrator 
for aviation security.
    Unfortunately, the FAA has not had a good week, neither 
with this hearing, unfortunately. We started off, I guess, with 
the Airbus 380 incident, we have had more controllers sleeping, 
we have a record number of mishaps. The vice chairman and I are 
headed right now--we are late for a meeting with the 
administrator, and just got word that the FAA chief 
administrative officer, Hank Krakowski, is resigning.
    So, it is not too good a day for FAA, or too good a week. 
But our job is to make it better, make it work better, figure 
out how these things got astray, particularly during the last 4 
years, and get them in order and work with the agencies and 
make certain that they do comply with just a common sense 
approach to expending limited resources, which is taxpayer 
dollars funding the whole show.
    So, there being no further business before the Committee on 
Transportation and Infrastructure this morning, I thank again 
our witnesses, and this meeting is adjourned. Thank you.
    [Whereupon, at 10:40 a.m., the committee was adjourned.]

</pre></body></html>
